           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 TRAINING OF NEW ADMINISTRATIVE LAW
  JUDGES AT THE OFFICE OF DISABILITY
      ADJUDICATION AND REVIEW


     October 2011   A-12-11-11126




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:      October 13, 2011                                                  Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Training of New Administrative Law Judges at the Office of Disability Adjudication and
           Review (A-12-11-11126)


           OBJECTIVE
           The objective of this audit was to determine whether newly hired administrative law
           judges (ALJ) received training timely to perform their specific duties to adjudicate
           disability claims at the Office of Disability Adjudication and Review (ODAR).

           BACKGROUND
           To apply for benefits, claimants file applications with the Social Security Administration
           (SSA). Disability determination services (DDS) determine whether claimants are
           disabled under SSA’s eligibility criteria. When a DDS denies a claim for disability
           benefits, claimants can appeal that decision and have a hearing before an ALJ.1 ALJs
           hold hearings at over 160 hearing offices (including 7 satellite offices) and 5 National
           Hearing Centers (NHC). 2 ODAR has approximately 1,300 ALJs and over 7,000 support
           staff working in these offices.

           ODAR’s goal is to reduce the hearings backlog to about 466,000 pending claims and an
           average processing time of 270 days per case by the end of Fiscal Year (FY) 2013. 3 To
           help meet its backlog goal, SSA has developed a number of initiatives and has set a




           1
            SSA, Hearings, Appeals and Litigation Law Manual I-2-0-2: Hearing Before an Administrative Law
           Judge – General (last update Sept. 28, 2005).
           2
            NHCs conduct only video hearings. NHCs are located in Albuquerque, New Mexico; Baltimore,
           Maryland; Chicago, Illinois; Falls Church, Virginia; and St. Louis, Missouri.
           3
            For a discussion on whether SSA will meet its 2013 backlog goals, see our June 2011 Congressional
           Response Report: Office of Disability Adjudication and Review’s Hearings Backlog and Processing
           Times (A-12-11-21192).
Page 2 - The Commissioner


goal for ALJs to issue 500 to 700 legally sufficient hearing decisions per year. 4 As of
May 2011, ODAR had a backlog of about 740,000 pending claims.

The President and Congress provided SSA with an additional $500 million through the
American Recovery and Reinvestment Act of 2009 (ARRA) to process disability and
retirement workloads. In FYs 2009 and 2010 using ARRA funds and other
appropriations, ODAR hired 305 ALJs and 1,626 support staff. 5

To complete our review, we interviewed managers and staff at ODAR components
responsible for producing, delivering, scheduling, and training for newly hired ALJs. We
also reviewed the structure and content of ODAR’s training programs for ALJs. In
addition, we administered a training questionnaire to 287 ALJs6 hired in FYs 2009 and
2010. See Appendix B for a further discussion of our scope and methodology.

RESULTS OF REVIEW
ODAR created a three-phase training program to develop newly hired ALJs. The
training phases are as follows.

    •   Phase One: On-the-job and video-on-demand (VOD) training.
    •   Phase Two: 4-week traditional classroom training.
    •   Phase Three: Mentoring from experienced ALJs.

We sent a questionnaire to the ALJs hired in FYs 2009 and 2010 to assess their
satisfaction with the training program. Of the 287 ALJs surveyed, 217 (76 percent)
responded.

Overall, we found that 98 percent of the new ALJs said the training was helpful,
87 percent said the training was timely, and 83 percent said the training was consistent
with their expectations. In addition, for each level of the three-phase training program,
at least 85 percent of the new ALJs either were satisfied or did not state dissatisfaction
(see table).


4
  In an October 2007 Memorandum, ODAR’s Chief ALJ identified expectations regarding the services
ALJs provide to the public. Mainly, he asked ALJs to issue 500 to 700 legally sufficient decisions each
year; act on a timely basis; and hold scheduled hearings unless there is a good reason to postpone or
cancel. SSA considers the 500 minimum decisions a goal, not a quota. In a December 2007
Memorandum, the Chief ALJ followed up on the earlier Memorandum and emphasized the importance of
legally sufficient hearings and decisions.
5
 These additional funds were provided under the American Recovery and Reinvestment Act of 2009,
Pub. L. No. 111-5, Division A, Title VIII (H.R. 1-71 to H.R. 1-72).
6
  Of the 305 ALJs hired during the FY 2009-2010 period, 13 ALJs left the Agency before or during our
review and 5 were not sent questionnaires since we interviewed them in person. ODAR hired another
73 ALJs just after fiscal year 2010 ended. We did not send these ALJs a questionnaire since they were
hired outside the scope of our audit.
Page 3 - The Commissioner

                                                                 Percent Satisfied or
                      Question                                    Not Dissatisfied
    Satisfaction with Phase One                                          88
    Satisfaction with Phase Two                                          94
    Satisfaction with Phase Three                                        85

While most of the ALJs completed Phase One training, 13 ALJs stated they did not
complete Phase One training because they lacked sufficient guidance from hearing
office management. In terms of Phase Two training, 25 percent of the ALJs commented
that the formal classroom training should be modified to account for ALJs with previous
ODAR experience. Most ALJs were satisfied with Phase Three training, though
16 ALJs stated they were dissatisfied because either they were not assigned a mentor
or the mentor had little time to give them guidance. Finally, about one in five ALJs said
they had not discussed their training needs with management.

THREE-PHASE TRAINING PROGRAM FOR NEWLY HIRED ALJs

In August 2006, a cross-component workgroup met to determine how to enhance the
training program for new ALJs. 7 The key objectives for the workgroup were to
incorporate technology; clarify, and effectively convey the importance of, SSA policy
and the role of the ALJ; and include instruction on the electronic disability (eDib) 8
process. The training program redesign included a three-phase approach for delivering
core competencies all new ALJs must acquire within their first year of employment. 9

The three-phase training program is mandatory for all newly hired ALJs. The ODAR-
administered 10 training involves on-the-job training, completion of VOD sessions,
traditional classroom training, and mentoring 11 from experienced ALJs in the hearing



7
  The workgroup met at the request of an Executive Steering Committee established to provide guidance
and direction for the modification of ALJ training. The workgroup consisted of subject matter experts and
training specialists from the Offices of Disability Policy; Disability and Income Security Programs, now the
Office of Retirement and Disability Policy (ORDP); General Counsel (OGC); and Learning as well as
ODAR, formerly the Office of Hearings and Appeals. The workgroup made 21 recommendations to the
Executive Steering Committee, of which ODAR adopted 19.
8
 Through implementation of the eDib projects, the official claims folder has evolved from paper to
partially electronic to a fully electronic disability claims process.
9
  Before ODAR established the three-phase training program in 2006, new ALJs took 5 weeks of
classroom training in available training space nationwide.
10
  The Office of the Chief Administrative Law Judge (OCALJ) and the Division of Training and Human
Resources identify ALJ training needs, identify instructors, schedule ALJs for classroom training, create
VOD material, and stipulate the three-phase training program requirements and curriculum to new ALJs.
11
  See Appendix D for a description of the mentoring activities in each of the three phases of training and
the different segments ALJs complete to meet all the requirements.
Page 4 - The Commissioner


office. 12 ODAR asks experienced ALJs participating in the mentor program to be
cognizant of the distinction between new ALJs with ODAR experience and ALJs who
are new to ODAR’s programs. 13 In addition, some training segments and production
expectations are adjusted in Phases One and Three based on the newly hired ALJ’s
experience before his/her appointment. For example, during the first year, the Mentor
Guide explains that a new ALJ without Agency experience should schedule a minimum
of 15 cases the first month, 20 the second month, and so forth, adding 5 cases per
month until full scheduling and productivity are achieved. An ALJ with prior ODAR
experience is expected to schedule a minimum of 20 hearings each of the first 2 months
and 30 the third month and to continue scheduling an additional 10 hearings each
month.

OIG QUESTIONNAIRE ON TRAINING FOR NEWLY HIRED ALJS

We sent a questionnaire to the 287 newly hired ALJs14 in FYs 2009 and 2010, asking
about their experiences with the three-phase ALJ training program. Of the ALJs
surveyed, 217 responded to the questionnaire (a 76-percent response rate). 15 We
structured the questionnaire so ALJs could rate their satisfaction with the overall training
as well as each of the three phases. We also provided open-ended questions so the
ALJs could provide their thoughts on the training as well as recommendations on
improvements for each phase. 16

Overall Opinion of the Three-Phase Training Program

Overall, 98 percent of new ALJs who responded to our survey thought the three-phase
training program was helpful, 87 percent said the training was timely, and 83 percent
said the training was consistent with their expectations. Respondents provided
numerous positive comments about the training. In their comments, a number of ALJs



12
   The training structure and guidance are available online in desktop training guides, VODs, Interactive
Video Teletraining (IVT), and in the 2010 New ALJ Mentoring Guide (Mentor Guide). The Mentor Guide
provides a list of participating lead mentors, along with information to administer and facilitate new ALJ
training activities. ALJ mentors and the Hearing Office Chief ALJs (HOCALJ) keep track of the ALJs’
progress as they complete each phase of the training.
13
  The Agency considered a new ALJ to have ODAR experience if, within no more than 1 year before
his/her appointment, the new ALJ was involved in reviewing claims using the electronic file and writing
disability decisions.
14
  ODAR hired 305 ALJs in FYs 2009 and 2010. However, 13 ALJs left the Agency before or during our
review. Moreover, five ALJs were interviewed in person when we visited the Wilkes-Barre, Pennsylvania,
Hearing Office. All five ALJs were very satisfied or satisfied with the overall three-phase training program.
We sent questionnaires to the remaining 287 newly hired ALJs.
15
  Responding ALJs did not always answer every question. For instance, the questionnaire asked
respondents to skip certain questions if the matter did not pertain to them.
16
     See Appendix E for a complete copy of our ALJ training questionnaire.
Page 5 - The Commissioner


stated the trainers were experts, and all phases of training were well developed. For
instance, three ALJs noted:
     •   “Everything has been excellent;”
     •   “My mentor has been amazing with his advice, teaching methods, and patience;”
         and
     •   “I think the training program was just right—it provided enough information to get
         a new ALJ started, without wasting time or expense.”

Questionnaire Results from Phase One Training

About 88 percent of the participants either were satisfied or did not state dissatisfaction
with the Phase One training, with 20 percent being “very satisfied” (see Figure 1).
Phase One training occurs during the first 2 weeks after being hired. While most of the
ALJs completed Phase One training, 13 ALJs stated they did not complete this phase
because they lacked sufficient guidance from hearing office management. 17


              Figure 1: ALJ Satisfaction with Phase One Training
                               Newly Hired ALJs in FYs 2009 and 2010
                                         (203 Responses)
                                            4%2%
                                    6%
                                                              20%
                               9%




                            18%
                                                                         41%



               Very Satisfied (20%)                    Satisfied (41%)
               Somewhat Satisfied (18%)                Neither Satisfied nor Dissatisfied (9%)
               Somewhat Dissatisfied (6%)              Dissatisfied (4%)
               Very Dissatisfied (2%)




17
  The HOCALJ and mentor provide guidance and material about the Phase One training to the new
ALJs. All information about the Phase One training is accessible online as a desktop training guide and
Mentor Guide. The ALJ is expected to watch a series of 17 VODs before attending Phase Two training.
Page 6 - The Commissioner


Of the ALJs who responded to the Phase One questions, 96 provided additional
comments. Many new ALJs thought hearing office management needed to convey the
training material and structure more effectively. In addition to the 13 ALJs who did not
take the Phase One training, other ALJs stated they did not fulfill all segments as
required because the full training program requirements were not conveyed to them.
For example, two ALJs stated, “I was unaware that training material existed, such as the
Mentor Guide or about my obligation to finish VOD instruction,” and “The office and
computer system orientation and job expectations portion of the Phase One training
would have been helpful had I known about them at the time.”

Other ALJs stated Phase One training segments should focus more on hearing office
functions and the disability process, the Case Processing and Management System,
general fundamentals of disability law, and history of SSA’s programs. Some ALJs
thought one-on-one training was more essential at this stage, rather than focusing on
the medical instruction offered in some of the VODs. 18 For example, an ALJ
commented, “The single most helpful set of instructions for those with no prior ODAR
experience would be to provide more comprehensive training about the Title II and Title
XVI programs, as it is the framework upon which to judge disability cases.”

Questionnaire Results from Phase Two Training

About 94 percent of the participants either stated they were satisfied or did not state
dissatisfaction with the Phase Two training, with 36 percent being “very satisfied” (see
Figure 2). Based on a review of ODAR’s training records, we also determined that all
newly hired ALJs participated in the 4-week formal classroom training. 19 ODAR holds
new ALJ training in Falls Church, Virginia, at its National Training Center. 20 Subject
matter experts from ODAR, ORDP, and OGC, among others, deliver classroom training.




18
  Many of the VODs in Phase One cover medical information so the ALJ can evaluate the signs and
symptoms of medical conditions that help provide findings of disability.
19
     See Appendix F for a partial agenda of the Phase Two training.
20
  In October 2009, SSA completed the National Training Center, located at ODAR Headquarters. ODAR
has a second national training center, the Midwest Training Center, in St. Louis, Missouri, which serves
ODAR employees from other parts of the country.
Page 7 - The Commissioner


            Figure 2: ALJ Satisfaction with Phase Two Training
                              Newly Hired ALJs in FYs 2009-2010
                                      (204 Responses)
                                               1%
                                 4% 5%
                                                            36%
                           13%




                                 41%
             Very Satisfied (36%)                               Satisfied (41%)
             Somewhat Satisfied (13%)                           Neither Satisfied nor Dissatisfied (4%)
             Somewhat Dissatisfied (5%)                         Dissatisfied (1%)
           Note: No one provided a response of “Very Dissatisfied.”




About 25 percent of the 204 responses we received from new ALJs regarding Phase
Two training suggested that the 4-week classroom training could be improved if the
classroom instruction was tailored to take into account the 2 groups who comprise the
ALJ hires: new ALJs with prior ODAR experience and those without it. While about
50 percent of new ALJs reported having prior SSA experience (see Figure 3), 21 many
comments suggested the ALJs were left behind in some classes because they were not
yet familiar enough with the disability program and laws, ODAR’s organizational
structure, or how claims were processed in the hearing offices. However, of the
50 percent of new ALJs with previous ODAR experience, some stated the classroom
instruction was redundant since they were familiar with the overall disability program
and hearing office functions.




21
  Most ALJs hired from within SSA were working at ODAR hearing offices, holding positions as attorney
advisors, senior attorneys, hearing office directors (HOD), and group supervisors. The ALJs hired from
other Federal agencies included the Departments of Labor, Interior, Agriculture, and Health and Human
Services. Those new ALJs hired from State agencies came from the Oklahoma Employment Security
Commission, Legal Services of New York City, and the Louisiana Department of Justice. ALJs who
worked in the private sector came from private law firms or were self-employed in their own law firm.
Page 8 - The Commissioner


              Figure 3: Prior Work of Newly Hired ALJs
                         Newly Hired ALJs in FYs 2009-2010
                                 (210 Responses)
                              10% 3%
                                                    50%
                     12%




                      25%
               Internal SSA Hires (50%)       Different Federal Agency (25%)
               State Agency (12%)             Private Sector (10%)
               Other (3%)



ALJs from both groups suggested breaking out some training sessions for those facing
a steeper learning curve allowing them to catch up, while those with more ODAR
experience wanted to focus on other specialized topics instead of repeating familiar
material. The training was tailored for ALJs with different exposure to ODAR in Phases
One and Three. For example, in Phase Three, ODAR established different productivity
standards for those with less experience to review cases at a slower pace. ALJs
offered comments to modify classes based on prior experience such as, “I was left
behind during the higher-level classroom training and could not work at the same pace,”
and “There should have been a separate section, at least part of the time, for the ODAR
experienced ALJs over the first two weeks of training.”

Questionnaire Results from Phase Three Training

About 85 percent of the participants stated they were satisfied or did not state
dissatisfaction with the Phase Three training, with 41 percent being “very satisfied” (see
Figure 4). Approximately 5 percent of the ALJs responding to the question were “very
dissatisfied.”
Page 9 - The Commissioner


            Figure 4: ALJ Satisfaction with Phase-Three Training
                                Newly Hired ALJs in FYs 2009-2010
                                        (201 Responses)
                                        4%      5%
                                  6%
                                                                         41%
                             9%

                            5%




                                    30%
                 Very Satisfied (41%)                     Satisfied (30%)
                 Somewhat Satisfied (5%)                  Neither Satisfied nor Dissatisfied (9%)
                 Somewhat Dissatisfied (6%)               Dissatisfied (4%)
                 Very Dissatisfied (5%)




Phase Three mentoring is a significant part of the training program and commences
once the ALJ returns from formal classroom training. This formal mentor relationship
lasts approximately 6 months.22 ODAR designed the training to provide new ALJs with
an understanding of their obligation to issue legally sufficient decisions in a timely
manner to meet the Agency’s expectation of issuing 500 to 700 legally sufficient
decisions a year.

Among the 201 responses to this question, some newly hired ALJs said they were not
assigned a mentor or their mentor had little time for them. The Mentor Guide states that
mentors are to meet regularly with the new ALJ (2 to 3 times each week) to ensure the
mentor meets the ALJ’s needs. The mentor helps the new ALJ (1) acquire adjudicative
skills, (2) build and manage a docket, and (3) create timely and legally sufficient
hearings and decisions. The following ALJ comment exemplifies this situation: “Since
both the mentor and the new ALJ have demanding caseloads, it limits the amount of
time that the mentor and I spend together. Therefore, the mentor should be given an
incentive to mentor, for example carry a somewhat lighter caseload while they mentor.”




22
   As noted earlier, the Mentor Guide provides explicit instructions for the mentor to assist the new ALJ
throughout the on-the-job training activities.
Page 10 - The Commissioner


In general, the HOCALJ assigns an experienced ALJ from the new ALJ’s home hearing
office to serve as a mentor. However, if no mentors are available in the home hearing
office, ODAR assigns a mentor from another hearing office. 23 At times, this can hinder
communication with the mentor. In response to our questionnaire, we received the
following comments: “My mentor was in a different hearing office than me and was also
in a different time zone and region . . . These factors made it difficult to communicate,”
and “I had very little contact with my mentor, but I was an Agency insider and so I did
not need much contact.”

Additional ALJ Training

Of the questionnaire respondents, 112 ALJs responded that they discuss their training
with the HOCALJ; 17 ALJs said they discuss their training with an “other party,” such as
the Regional Chief Administrative Law Judge or Group Supervisor; and 8 said they
discuss their training with the HOD. However, 45 ALJs (21 percent) said they do not
discuss their training with anyone. ALJs expressed different reasons as to why they
had not discussed their training needs with anyone, such as, “There is no one in the
office with whom to discuss training,” and “No one yet; I expect I would consult the
HOD, HOCALJ and other ALJs.”

We also inquired about training needs related to State Bar membership. Each State
Bar member is responsible for applying to his/her State Bar for Continuing Legal
Education credit, in accordance with the requirements for that jurisdiction. Of the
respondents, 126 ALJs stated they are required to earn Continuing Legal Education as
part of their State Bar status.

CONCLUSION AND RECOMMENDATIONS
Overall, we found that 98 percent of the new ALJs said the training was helpful,
87 percent said the training was timely, and 83 percent said it met their expectations. In
addition, for each level of the three-phase training program, at least 85 percent of the
new ALJs either were satisfied or did not state dissatisfaction. Even though the ALJs
were mostly satisfied with the content and timing of the three-phase training program,
they offered suggestions for improvement. Not all the ALJs completed the Phase One
training, and some ALJs stated that additional instructions on this phase would be
helpful. In addition, 25 percent of ALJs providing comments about Phase Two
suggested ODAR modify the training based on whether the newly hired ALJs had
previous ODAR experience. Some ALJs also thought ODAR could improve the
mentoring program, since either they did not have a mentor, or their mentor had little


23
   OCALJ recently moved certain responsibilities from the mentor to the hearing office management team.
Regional office and management now inform OCALJ that Phase One and Three activities have been
completed. In addition, ODAR asked all regions to appoint a mentor for each of the new ALJs assigned
to their region prior to their entry on duty. OCALJ prefers the mentor is in the same office as the new
ALJ, but recognizes that in some offices a sufficient number of excellent mentors may not be available or
willing to serve in this role. ODAR has made these training revisions in a 2011 Mentor Guide.
Page 11 - The Commissioner


time to give them guidance. Finally, about one in five ALJs said they had not discussed
their training needs with management.

Based on questionnaire feedback from the newly hired ALJs, we recommend SSA:

1. Remind hearing office managers to discuss the new-hire training requirements
   timely, and provide the training material to all newly hired ALJs.

2. Consider modifying the 4-week classroom training to accommodate ALJs with
   differing levels of experience with the Agency’s programs.

3. Ensure ALJs have a mentor assigned during the three-phase training program, and
   when possible, assign mentors who are in the same hearing office.

4. Ensure ALJs are part of a process where they can periodically discuss their training
   needs with more senior ALJs and managers in the hearing office to assist with their
   ongoing development.

AGENCY COMMENTS
The Agency agreed with all four recommendations. See Appendix G for the Agency’s
comments.




                                        Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Qualification Standard for Administrative Law Judge Positions

APPENDIX D – New Administrative Law Judge Mentoring Vision Statement
             (Mentor Guide)

APPENDIX E – Office of the Inspector General Questionnaire for Newly Hired
             Administrative Law Judges

APPENDIX F – Phase Two Training Agenda for Newly Hired Administrative Law Judges

APPENDIX G – Agency Comments

APPENDIX H – OIG Contacts and Staff Acknowledgements
                                                              Appendix A

Acronyms
ALJ           Administrative Law Judge
APA           Administrative Procedure Act
ARRA          American Recovery and Reinvestment Act of 2009
C.F.R.        Code of Federal Regulations
DDS           Disability Determination Services
eDib          Electronic Disability
FR            Federal Register
FY            Fiscal Year
HOCALJ        Hearing Office Chief Administrative Law Judge
HOD           Hearing Office Director
H.R.          House Resolution
IVT           Interactive Video Teletraining
KSA           Knowledge, Skills, and Abilities
NHC           National Hearing Center
OCALJ         Office of the Chief Administrative Law Judge
ODAR          Office of Disability Adjudication and Review
OGC           Office of General Counsel
OIG           Office of the Inspector General
OPM           Office of Personnel Management
ORDP          Office of Retirement and Disability Policy
Pub. L. No.   Public Law Number
SSA           Social Security Administration
U.S.C.        United States Code
VOD           Video-on-Demand
                                                                      Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable Federal laws and regulations and pertinent Office of Personnel
    Management training policies.

•   Reviewed the elements of the Office of Disability and Adjudication Review’s (ODAR)
    three-phase training program and basic core curriculums required for all new ALJs to
    complete during their first year.

•   Interviewed management and staff at the Offices of the Chief Administrative Law
    Judge (OCALJ) and Executive Operations and Human Resources Division of
    Training and Human Resources at Headquarters in Falls Church, Virginia.

•   Interviewed management and staff in ODAR’s Philadelphia Region headquarters
    and one hearing office in Region III to determine the regional and hearing office
    responsibilities regarding training for newly hired ALJs.

•   Obtained and verified a listing of all new ALJs hired in Fiscal Years 2009 and 2010.

•   Developed a questionnaire to evaluate the ALJ training and for new ALJs to provide
    feedback about training they completed. We tested the questionnaire with five newly
    hired ALJs and interviewed them afterwards to discuss their responses. We then
    emailed the questionnaire to 287 new ALJs hired in FYs 2009 and 2010, which did
    not include the five we interviewed earlier nor ALJs who had already left the Agency
    at the time of our review.

•   Analyzed and compiled the data from the online ALJ training questionnaire, making
    some queries to respondents to ensure we addressed any anomalies in the data.

The entity audited was the Office of the Deputy Commissioner for Disability Adjudication
and Review. We conducted this audit from October 2010 through May 2011, in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.
                                                                               Appendix C

Qualification Standard for Administrative
Law Judge Positions
Below we quote information from the Office of Personnel Management’s responsibilities
pertaining to Federal administrative law judges (ALJ). 1

I. BACKGROUND

The U. S. Office of Personnel Management (OPM) administers the qualifications for the
Federal Government ALJ function. The function was created by the Administrative
Procedure Act (APA) in 1946 to ensure fairness in administrative proceedings before
Federal Government agencies. An ALJ serves as an independent, impartial trier of fact
in formal proceedings requiring a decision on the record after the opportunity for a
hearing. In general, ALJs prepare for, and preside at, formal proceedings required by
statute held under or in accordance with provisions of the APA, codified, in relevant
part, in sections 553 through 559 of title 5, United States Code (U.S.C.). ALJs rule on
preliminary motions, conduct pre-hearing conferences, issue subpoenas, conduct
hearings (which may include written and/or oral testimony and cross-examination),
review briefs, and prepare and issue decisions, along with written findings of fact and
conclusions of law.

The Federal Government employs ALJs in a number of agencies throughout the United
States. Cases may involve Federal laws and regulations in such areas as admiralty,
advertising, antitrust, banking, communications, energy, environmental protection, food
and drugs, health and safety, housing, immigration, interstate commerce, international
trade, labor management relations, securities and commodities markets, social security
disability and other benefit claims, and transportation.

II. QUALIFICATION REQUIREMENTS

An applicant must meet both the licensure and experience requirements and pass the
OPM administrative law judge competitive examination to qualify for an ALJ position.

A. Licensure

Applicants must be licensed and authorized to practice law under the laws of a State,
the District of Columbia, the Commonwealth of Puerto Rico, or any territorial court
established under the United States Constitution throughout the selection process,
including any period on the standing register of eligible applicants. Judicial status is
acceptable in lieu of “active” status in States that prohibit sitting judges from maintaining
1
 U.S. Office of Personnel Management, Recruiting, Retaining and Honoring a World-Class Workforce to
Serve the American People, www.opm.gov/qualifications/alj/alj.asp.

                                                C-1
“active” status to practice law. Being in “good standing” is acceptable in lieu of “active”
status in States where the licensing authority considers “good standing” as having a
current license to practice law.

B. Experience

Qualifying Experience

Applicants must have a full 7 years of experience as a licensed attorney preparing for,
participating in, and/or reviewing formal hearings or trials involving litigation and/or
administrative law at the Federal, State, or local level.

The applicant must have conducted cases on the record under procedures at least as
formal as those prescribed by sections 553 through 559 of title 5, U.S.C.

Qualifying litigation experience involves cases in which a complaint was filed with a
court, or a charging document (for example, indictment or information) was issued by a
court, a grand jury, or appropriate military authority, and includes:

•   participating in settlement or plea negotiations in advance of trial;
•   preparing for trial and/or trial of cases;
•   preparing opinions;
•   hearing cases;
•   participating in or conducting arbitration, mediation, or other alternative dispute
    resolution approved by the court; or
•   participating in appeals related to the types of cases above.

Qualifying administrative law experience involves cases in which a governmental
administrative body initiated a formal procedure and includes:

•   participating in settlement negotiations in advance of hearing cases;
•   preparing for hearing and/or trial of cases;
•   preparing opinions;
•   hearing cases;
•   participating in or conducting arbitration, mediation, or other alternative dispute
    resolution approved by the administrative body; or
•   participating in appeals related to the types of cases above.

Non-qualifying Experience

Experience involving cases with no formal hearing procedure and uncontested cases
involving misdemeanors, probate, domestic relations, or tort matters does not qualify.




                                             C-2
C. Examination

Applicants are required to pass an examination, the purpose of which is to evaluate the
competencies/knowledge, skills, and abilities (KSA) essential to performing the work of
an ALJ.

III. CONDITION OF EMPLOYMENT

ALJs must be held to a high standard of conduct to maintain the integrity and
independence of the administrative judiciary. As a condition of employment, all ALJs
must meet the licensure requirement stated in Part II Qualification Requirements.
Incumbent ALJs must continue to meet this condition throughout the duration of their
employment. This requirement also applies to former ALJs who are reinstated or
reemployed as Senior ALJs. Judicial status is acceptable in lieu of “active” status in
States that prohibit sitting judges from maintaining “active” status to practice law. Being
in “good standing” is acceptable in lieu of “active” status in States where the licensing
authority considers “good standing” as having a current license to practice law.

Note: On July 18, 2008, the Office of Personnel Management issued an interim rule,
73 FR 41235, suspending the requirement in 5 CFR 930.204(b) that requires incumbent
ALJs to “possess a professional license to practice law and be authorized to practice
law.”




                                            C-3
                                                                      Appendix D

New Administrative Law Judge Mentoring
Vision Statement (Mentor Guide)
PHASE ONE MENTOR ACTIVITIES

In collaboration with the Hearing Office Chief Administrative Law Judge, the mentor
plays an important role in the new administrative law judge’s (ALJ) training and
development. In partnership with the hearing office management team, the following
activities are conducted to every extent possible.

•   Make sure ALJs attend all Interactive Video Teletraining broadcasts,
    teleconferences, etc.
•   Arrange for the new ALJ to meet/interview all hearing office personnel identified
    earlier in this section of the guide.
•   Using the first week of Phase Two training materials (available online), provide a
    broad overview of the disability program, including an explanation of the District
    Office, Disability Determination Services, Hearing Office, the function of the Appeals
    Council and the role of the Federal courts. Discuss Title II, Date Last Insured, Title
    XVI, grids, etc. Explain the law, regulations, and rulings. Show the new ALJ where
    these items are available online.
•   Introduce the new ALJ to the computer. Request that the new ALJ contact the
    Office of the Chief ALJ to obtain his/her LexisNexis password. Show the new ALJ
    Word, Outlook, the Case Process Management System, the Digital Recording
    Acquisition Project, and other online resources. Have an experienced staff attorney
    explain the Digital Generated System and the Findings Integrated Templates to the
    new ALJ. Have the new ALJ practice using these applications. If necessary, refer to
    management a list of those applications requiring additional computer
    training/resources needed by the new ALJ.
•   Show the new ALJ a file and go through it with him/her, discussing what is in each
    section. Introduce the new ALJ to electronic disability (eDib) and show him/her how
    to use it.
•   Arrange for the new ALJ to observe some hearings. Try to expose the new ALJ to
    as many types of hearings as feasible. The hearings may include the following
    types: adult, child, represented, unrepresented, vocational expert, medical expert,
    and video teleconferencing hearing. Arrange for the new ALJ to see the hearings of
    other pre-selected ALJs and ensure that the new ALJ has a chance to ask questions
    of the veteran ALJ about the hearing. Suggest that the new ALJ write notes while
    observing the hearing. These notes should include salient facts that the new ALJ
    thinks are pertinent to the hearing. Following the hearing, encourage the new ALJ to
    ask you questions. The ALJ completes the Hearings Observed Checklist.

                                           D-1
PHASE TWO MENTOR ACTIVITIES

It is important to continue the mentoring relationship while the new ALJ is in formal
training.

The mentor should be in touch with the new ALJ weekly during this period to discuss
the training and any concerns.

The mentor should also:

•   Encourage the new ALJ to participate fully in the training and ask questions of
    instructors appropriately. The mentor should have the new ALJ training materials
    and agenda as reference resources.
•   Be sure to exchange contact information before the new ALJ leaves for Phase Two
    formal training.

PHASE THREE MENTOR ACTIVITIES

The mentor should review the following topics with the new ALJ:

    •   The benchmarks;
    •   Methods of requesting docket dates and/or scheduling hearings;
    •   Effective file review;
    •   Determining when experts are needed and how the experts are requested and
        scheduled (stressing the importance of rotational assignment);
    •   How to maintain a scheduled docket;
    •   Methods of conducting efficient due process hearings;
    •   Use of bench decisions;
    •   Drafting instructions;
    •   What constitutes a legally sufficient decision;
    •   Most common reasons for remands; and
    •   Use of technology.

The ALJ and mentor are responsible for ensuring all Videos on Demand are viewed and
the checklist is completed before attending classroom training, which is Phase Two.




                                           D-2
                                                                           Appendix E

Office of the Inspector General Questionnaire
for Newly Hired Administrative Law Judges

The Office of Disability Adjudication and Review (ODAR) established a three-phase training
program for new administrative law judges (ALJ), which includes mentors assigned to each ALJ.
This survey covers questions about each of the three phases of your training. The Office of the
Inspector General will hold your responses in the strictest confidence. This survey should take
approximately 5 -10 minutes to complete. We thank you in advance for your feedback.

1. Prior to taking your new position at ODAR, where were you previously employed?

   o   SSA
   o   Another Federal agency
   o   A State agency
   o   Private sector
   o   Other

   a. Name of prior employer:

   b. Name of component/office, if appropriate (e.g., SSA/ODAR/Dallas Hearing office):

   c. Prior position title:

   d. Length of employment with the employer named in “a” above:

       o   Less than 1 year
       o   1 to less than 5 years
       o   5 to less than 10 years
       o   More than 10 years

2. Are you required to obtain Continuing Legal Education (CLE) credits as part of your
membership in a state bar?

   o   Yes
   o   No

3. Have you participated in the ALJ Phase One training, which involves 2 to 3 weeks of
orientation and other learning activities, including Video on Demand lessons, designed
to create a foundation for the formal classroom training?

   o   Yes
   o   No - Skip to Question 5.



                                             E-1
4. How satisfied were you with the content of the Phase One training? We will ask a
specific question about the Mentor Program in a later question.

   o   Very satisfied
   o   Satisfied
   o   Somewhat satisfied
   o   Neither satisfied nor dissatisfied
   o   Somewhat dissatisfied
   o   Dissatisfied
   o   Very dissatisfied

   a. Are there any areas where the Phase One coverage could have been improved? If
      so, please discuss.

5. Have you participated in the ALJ Phase Two training, which consists of 4 weeks of
traditional classroom training?

   o   Yes
   o   No - Skip to Question 7.

6. How satisfied were you with the content of the Phase Two training?
   o   Very satisfied
   o   Satisfied
   o   Somewhat satisfied
   o   Neither satisfied nor dissatisfied
   o   Somewhat dissatisfied
   o   Dissatisfied
   o   Very dissatisfied

   a. Are there any areas where the Phase Two coverage could have been improved? If
      so, please discuss.
7. Have you participated in the ALJ Mentor Program, which involves all three phases,
designed to pair a new ALJ with an experienced ALJ to provide advice, coaching, and
expertise during the transition to an independent adjudicator?
   o   Yes
   o   No - Skip to Question 9.
8. How satisfied were you with the Mentor Program, which was designed to assist you
throughout all three phases of the training program?
   o   Very Satisfied
   o   Satisfied
   o   Somewhat Satisfied
   o   Neither satisfied nor dissatisfied
   o   Somewhat Dissatisfied
   o   Dissatisfied
   o   Very Dissatisfied



                                            E-2
   a. Are there any areas where the Mentor Program could have been improved? If so,
      please discuss.

9. Overall, was your experience with the three phases of training consistent with your
expectations?
   o   Yes
   o   No
   o   No opinion

   a. If no, please explain.

10. Were the three phases of training provided in a timely way, thereby providing you
with requisite skills when they were most relevant to your duties?
   o   Yes
   o   No

   a. If the three phases of training were not timely, please explain when it would have
      been more helpful.

11. Have you received any training in addition to the ALJ three phase training program?
For example, ODAR offered a supplemental ALJ 1-week class.
   o   Yes
   o   No

   a. If yes, please note the types of courses.

12. Overall, were the different types of training and mentoring provided helpful in the
performance of your assigned duties?
   o   Yes
   o   No

13. With whom do you discuss your training needs at the hearing office?

   o   Hearing Office Chief ALJ
   o   Hearing Office Director
   o   No one
   o   Other party
   o   Specify your own value:_____________________________________

If you selected other party, please enter name:

14. Please let us know if you have any other comments with regard to your training or
development as an ALJ in ODAR.

Thank you for completing this survey.




                                            E-3
                                                               Appendix F

Phase Two Training Agenda for Newly Hired
Administrative Law Judges
                              Day 1
                    Tuesday, October 12, 2010
     Time                    Topic                          Presenter
8:00 -8:10     Welcome/Student Introductions           Administrative Law
                                                       Judge (ALJ)
                                                       Instructor Team
8:10-8:20      Welcome, Office of the Chief Judge      Judge JoAnn L.
                                                       Anderson, Deputy
                                                       Chief ALJ
8:20-9:15      Review of Training Material &           Judge Stephens
               Overview of the Agenda                  Judge Dilley
                - ALJ Mentoring Program
9:15-10:15     Administrative Review Process           Judge Sweeda
               Before the ALJ                          Judge Weiss
                  - Initial and Reconsideration
                  - Prototype
                  - Discuss CFR 404.929-941 Right to
                     a hearing
               The New Approach – General Overview
10:15-10:30    BREAK
10:30 -11:30   SSA ALJ Authority: A Training for       Jeff Blair, Office of
               New ALJs                                the General
                                                       Counsel
11:30 -12:30   Policy and the ALJ                      Barry Eigen, Office
               Applicable Law - Prioritization         of Disability Policy
                  - Social Security Act
                  - Social Security Regulations – 20
                      CFR Part 400-499
                  - Social Security Rulings
                  - HALLEX
                  - Acquiescence Rulings
                  - Case Law
12:30 -1:30    LUNCH
1:30-2:30      Brief Framework and Background          Lizabeth Calvo,
               of SSA Programs – Title II, Title       Office of Income
               XVI, CDRs, RSI, Childhood               Security Policy


                                     F-1
2:30-3:30      Structure of the Claim File (Walk           Judge Stephens
               through the 6 Part File)-eFolder            Judge Goldstein
3:30-3:45      BREAK
3:45-4:30      ALJ Hearing Procedures 20 CFR               Judge Maxwell
               404.944.953                                 Judge Dilley
                                Day 2
                   Wednesday, October 13, 2010
8:00-8:15     Review and Q&A                               Judge   Stephens
                                                           Judge   Dilley
8:15-9:15     Concept of Insured Status                    Judge   Sweeda
                 - Significance of DLI                     Judge   Dilley
                 - Period at Issue in Title II vs. Title
                     XVI
9:15-10:15    Overview of the Sequential                   Judge Stephens
              Evaluation Process                           Judge Weiss
                 - CFR 404.1520
                 - SSR 86-8
10:15-10:30   BREAK
10:30-11:15   Step 1 - Substantial Gainful Activity:       Judge Maxwell
              20 CFR 404.1571-1576                         Judge Goldstein
                 - SSRs 83-33, 83-34, 83-35 & 84-25
                 - Wage Earners, Self-Employed,
                     Sheltered Work, and Unsuccessful
                     Work Attempt
              Exercises/Problems
11:15-12:15   SGA Case Study                               Judge Maxwell
                                                           Judge Goldstein
12:15-1:15    LUNCH
1:15-2:00     Signs, Symptoms and Laboratory               Judge Stephens
              Findings                                     Judge Dilley
                 - Definition
                 - Medically Determinable Impairment
                 - S, Sx and LF in the Medical
                     Evidence
                 - Gold Standard in Diagnostic Tests
              Tests Administered by DDS
2:00-3:00     Medical Terminology and Common               Judge Sweeda
              Abbreviations                                Judge Goldstein
3:00-3:15     BREAK
3:15-4:00     Step 2 – Severe Impairment:                  Judge Sweeda
              CFR 404.1521-1523; SSRs 85-28, 96-3p         Judge Weiss
              and 96-4p
4:00-4:30     Q&A Steps 1 and 2                            ALJ Instructor
                                                           Team

                                       F-2
                              Day 3
                    Thursday, October 14, 2010
8:00 -8:15    Review and Q&A                            Judge   Stephens
                                                        Judge   Dilley
8:15-9:15     Step 3 – Meets/Equals a Listed            Judge   Stephens
              Impairment (Overview)                     Judge   Dilley
                 - CFR 404.1525-1526; Listing of
                    Impairments; SSR 96-6p
                 - Exercises for Step 3
9:15-10:30    Q&A Steps 1, 2, and 3                     ALJ Instructor
                                                        Team
10:30-10:45   BREAK
10:45-12:15   Respiratory Medical Lecture               Dr. Bernard Ferrell,
                                                        Medical and
                                                        Vocational Policy
12:15-1:15    LUNCH
1:15-2:45     Cardiovascular Medical Lecture            Dr. Steven
                                                        Steinberg, Medical
                                                        and Vocational
                                                        Policy
2:45-3:00     BREAK
3:00-4:30     Review of Case with Respiratory and       Judge Stephens
              Cardiovascular and Impairment             Judge Weiss
                               Day 4
                     Friday, October 15, 2010
8:00-8:30     Review Step 3 and Q&A                     Judge Stephens
                                                        Judge Dilley
8:30-10:00    Medical Lecture on Mental                 Dr. Charles
              Impairments                               Lawrence, ODP –
                                                        Medical and Policy
10:00-10:15   BREAK
10:15-12:00   Discussion of Mental Impairments          Judge Sweeda and
                 - Section 12.00: CFR 404.1520a         Judge Maxwell
                 - A, B and C Criteria
                 - Discuss Psychiatric Review           Judge Goldstein
                    Technique Form                      and Judge Dilley
                 - Review Basic Work Activities
                    (Mental)
                 - Relationship of B Criteria to Work
                    Capacity
                 - SSR 85-16




                                      F-3
12:00-1:00     LUNCH
1:00-2:30      Review of Case with Mental               Judge Maxwell
               Impairment                               Judge Goldstein
2:30-2:45      BREAK
2:45-4:00      Review of the Week                       Judge   Stephens
                                                        Judge   Dilley
4:00-4:30      Evaluations                              Judge   Stephens
                                                        Judge   Dilley
                                Day 5
                      Monday, October 18, 2010
8:00 -9:00     Introduction of New Instructors          ALJ Instructor
               Review of Prior Week Presentations       Team

9:00 -10:15    Residual Functional Capacity             Judge Heitz
                 - Elements (404.1545 and SSR 96-       Judge Pang
                    8p)
                 - Exertional Capacity and SSR 83-10)
10:15 -10:30   BREAK
10:30 -11:30   Residual Functional Capacity – cont.     Judge Heitz
                                                        Judge Pang
11:30 -12:30   LUNCH
12:30 -1:30    Review “Daniel” Case File (medical       Judge   Stanley
               evidence)                                Judge   Hatfield
1:30 -2:30     Evaluation of Medical Opinions: CFR      Judge   Kunz
               404.1527                                 Judge   Morgan
                  - SSRs 96-2p, 96-5p, 96-6p
                  - Non-Treating Source/Non-
                     Examining Source
                  - SSR 06-3p
2:30 -2:45     BREAK
2:45 -4:00     Evaluation of Medical Opinions: CFR      Judge   Kunz
               –cont.                                   Judge   Morgan
4:00 -4:30     Outlining Exercise “Daniel”              Judge   Stanley
                  - Evaluation of Opinion Evidence      Judge   Pang
                  - Group Exercise




                                     F-4
                               Day 6
                     Tuesday, October 19, 2010
8:00 -8:15     Review and Q&A                            ALJ Instructor
                                                         Team
8:15 -9:45     Evaluation of Subjective Complaints       Judge Stanley
                  - Discussion of Issues Reserved to     Judge Hatfield
                    the COSS
                  - CFR 404:1529; SSR 96-7p
                 - Review Daniel Case File (subjective
                    complaints)
                 - Group Exercises
                 - Q & A Period
9:45 -10:00    BREAK
10:00 -11:15   Evaluation of Subjective Complaints       Judge Kunz
                                                         Judge Hatfield
11:15 -12:15   LUNCH
12:15 -2:15    Phrasing/Writing of Rationale in          ALJ Instructor
               “Daniel”                                  Team
2:15 -2:30     BREAK
2:30 -3:15     Phrasing/Writing of Rationale in          ALJ Instructor
               “Daniel” – cont.                          Team
3:15 -4:30     Group Discussion of Rationale in          ALJ Instructor
               “Daniel”                                  Team
                  - Sample Decisions for “Daniel”
                  - Discuss Phrasing Instructions to
                     Decisions Writers in “Daniel”
                  - Q & A Period




                                       F-5
                  Appendix G

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:      September 26, 2011                                                      Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Training of New Administrative Law Judges at
           the Office of Disability Adjudication and Review” (A-12-11-11126)--INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord at (410) 966-5787.

           Attachment




                                                          G-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“TRAINING OF NEW ADMINISTRATIVE LAW JUDGES AT THE OFFICE OF
DISABILITY ADJUDICATION AND REVIEW” A-12-11-11126


Recommendation 1

Remind hearing office managers to discuss the new-hire training requirements timely and
provide the training material to all newly hired administrative law judges (ALJ).

Response

We agree.

Recommendation 2

Consider modifying the 4-week classroom training to accommodate ALJs with differing levels of
experience with the Agency’s programs.

Response

We agree.

Recommendation 3

Ensure ALJs have a mentor assigned during the three-phase training program, and when
possible, assign mentors who are in the same hearing office.

Response

We agree.

Recommendation 4

Ensure ALJs are part of a process where they can periodically discuss their training needs with
more senior ALJs and managers in the hearing office to assist with their ongoing development.

Response

We agree.




                                               G-2
                                                                         Appendix H

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Chicago Audit Division

   Nicholas Milanek, Audit Manager, Falls Church Audit Office

Acknowledgments

In addition to those named above:

   Mary Ann Braycich, Evaluator-in-Charge

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-12-11-11126.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
